CASE NO. 21-5672
IN THE SUPREME COURT OF THE UNITED STATES

WAYNE C. DOTY,
Petitioner,

Vv.

STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI

Certificate of Service
I, Carolyn M. Snurkowski, a member of the Bar of this Court,
hereby certify that on this 27 day of September, 2021, a copy of the
Respondent’s Brief in Opposition in the above entitled case was furnished
by United States mail, postage prepaid, to Jessica J. Yeary, Public
Defender, Second Judicial Circuit of the Florida Office of the Public
Defender; Barbara J. Busharis, Assistant Public Defender, 301 South

Monroe Street, Suite 401, Tallahassee, Florida 32301.
Respectfully submitted,

ASHLEY MOODY
ATTORNEY GENERAL

I _f pp
/ i nt

 

CAROLYN M. SNURKOW:
Associate Deputy Attorney General
Florida Bar No. 158541

Counsel of Record
